HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Palmetto GBA,"(A-05-02-00088)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative
Responsibility of Palmetto GBA," (A-05-02-00088)
March 31, 2003
Complete
Text of Report is available in PDF format (397 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The OIG report estimates that $14.1 million in ineligible Medicare Skilled
Nursing Facility (SNF) payments were made under the administrative responsibility
of Palmetto Government Benefits Administrator (GBA) during calendar years 1997
through 2001.  The overpayments occurred because of the absence of an
automated cross-check between the Centers for Medicare and Medicaid Services
Common Working File and the Fiscal Intermediarys claims processing systems
to verify that a three consecutive day inpatient hospital stay occurred prior
to SNF admission.  Palmetto GBA agreed with the findings and recommendations
presented in the report and will initiate recovery action for any payments
determined to be inappropriate.